PHIL WEISER
Attorney General

RALPH L. CARR
COLORADO JUDICIAL CENTER
1300 Broadway, 10th Floor
Denver, Colorado 80203
Phone (720) 508-6000

NATALIE HANLON LEH
Chief Deputy Attorney General
ERIC R. OLSON
Solicitor General

STATE OF COLORADO
DEPARTMENT OF LAW
July 1, 2020
Scott S. Harris
Clerk of the Court
United States Supreme Court
1 First Street, NE
Washington, D.C. 20543
RE:

Robert A. Perez, 19-1357 — Motion under Supreme Court Rule 30.4 to
Extend the Time to File a Brief in Opposition

Dear Mr. Harris:
This office represents the State of Colorado in the above-captioned case. Under
Supreme Court Rule 15.3, the initial deadline for filing a brief in opposition to the
petition for writ of certiorari is July 13, 2020. Pursuant to Supreme Court Rule 30.4,
I write to request a 60-day extension of time, to and including September 11, 2020,
within which to file a brief in opposition.
This extension is necessary for the following reasons. First, additional counsel will be
participating in drafting and filing the brief in opposition, and more time is required
to adequately prepare the brief and respond to the issues raised. Second, counsel are
currently litigating various matters in the U.S. District Court, the Colorado Supreme
Court, and the Colorado Court of Appeals. Due to briefing and other deadlines in
those matters, counsel requires the extension to ensure adequate time and attention
may be paid to the issues raised in the petition.
Counsel has conferred with counsel of record for Petitioner, who indicated that
Petitioner does not object to the requested 60-day extension of time.
In compliance with Supreme Court Rule 29, enclosed is a separate proof of service
evidencing service of this letter on counsel for Petitioner. Thank you for your
attention to this matter.

Sincerely,
FOR THE ATTORNEY GENERAL

L. Andrew
Cooper

Digitally signed by L.
Andrew Cooper
Date: 2020.07.01
14:13:45 -06'00'

L. ANDREW COOPER*
Deputy Attorney General
(720) 508-6465
Email: andrew.cooper@coag.gov
*Counsel of Record for Respondent

